No. 21A_____
IN THE

Supreme Court of the United States
FREDRIC N. ESHELMAN
Applicant,
v.
PUMA BIOTECHNOLOGY, INC.
Respondent.
On Application for Stay
CERTIFICATE OF SERVICE
I hereby certify that a true and correct copy of the foregoing Emergency
Application for a Stay of the Mandate of the United States Court of Appeals for the
Fourth Circuit Pending Disposition of Forthcoming Petition for a Writ of Certiorari
and Request for Administrative Stay was transmitted to the counsel for Respondent
listed below by electronic mail contemporaneous with its filing and that a hard-copy
of the same is being sent to the counsel for Respondent listed below by Federal
Express overnight delivery, postage prepaid:
Roman Martinez
Charles S. Dameron
Margaret A. Upshaw
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004

Telephone: (202) 637-2200
Email: roman.martinez@lw.com
Email: charles.dameron@lw.com
Email: maggie.upshaw@lw.com

Dated: August 2, 2021

By:

/s/ Elizabeth M. Locke, P.C.
Elizabeth M. Locke, P.C.

